              U.S. DEPARTMENT OF THE INTERIOR

               OFFICE OF INSPECTOR GENERAL




                EVALUATION REPORT




INFORMATION SYSTEM SECURITY OVER SYSTEMS AND APPLICATIONS
USED BY THE NATIONAL BUSINESS CENTER TO PROVIDE SERVICES TO
          NON-DEPARTMENT OF THE INTERIOR CLIENTS




No. A-EV-0SS-0094-2004                     August 2004
                United States Department of the Interior

                                   Office of Inspector General
                                     National Information Systems Office
                                      134 Union Boulevard, Suite 510
                                         Lakewood, Colorado 80228


                                                                                  August 23, 2004
Memorandum

To:         Director, National Business Center

From:       Diann Sandy
            Manager, National Information Systems Office

Subject:    Review of Information System Security over Systems and Applications Used
            by the National Business Center to Provide Services to Non-Department of
            the Interior Clients (Report No. A-EV-OSS-0094-2004)

We performed the subject review based on inquiries from other Inspector General offices
about the security over systems and applications used by the National Business Center
(NBC) to provide services, such as payroll processing, to their respective agencies.1 The
purpose of our review was to assess NBC’s information security management program
and practices over these client-oriented systems and applications.

We discussed the results of our review with representatives of NBC. The officials
generally agreed with our report and commented on certain report findings. We modified
the report as appropriate based on the comments.

BACKGROUND
Information on NBC and the Department of the Interior’s (DOI) security program are
described below.

NATIONAL                    In 2000, under the Assistant Secretary for Policy, Management
BUSINESS CENTER             and Budget, NBC was created to centralize the operations and
                            maintenance of DOI-wide administrative systems. NBC serves
                            as the systems manager and general purpose computing host
                            (using servers at its Denver, Colorado, and Reston, Virginia,
                            data centers) for systems supporting budget, procurement and
                            contracts, personnel management, financial and accounting, E-
                            government, and other general administrative systems. In this

      1
     The Federal Information Security Management Act of 2002 (FISMA) requires Inspectors General to
evaluate their agency security program “including information systems operated by a contractor of an
agency or other organization on behalf of an agency.”
                             capacity, NBC provides services related to such automated
                             systems as the Federal Personnel and Payroll System (FPPS);
                             Federal Financial System (FFS); Fixed Assets and Inventory
                             Subsystems; Interior Department Electronic Acquisition System
                             (IDEAS); electronic commerce; electronic time and attendance
                             system (Quicktime); mainframe time-sharing; and Internet
                             publishing. NBC also provides specialized services such as
                             quarters’ management and employee drug testing. NBC
                             provides its systems and services to DOI and other Federal
                             organizations on a full cost-recovery basis.

                             NBC’s services are provided through negotiated Inter-Agency
                             Agreements (IAA). Regarding IT system operations, overall
                             agreements are supposed to include:

                             Service Level Agreements – defines specific tasks to be
                              performed and roles and responsibilities of the respective
                              parties.

                             Security Service Agreements – defines security roles and
                              responsibilities of the respective parties.

                             Interconnect Security Agreements – defines the roles and
                              responsibilities for client network management in
                              connecting to NBC systems and applications.

DOI SECURITY                The Chief Information Officer (CIO) for DOI is responsible for
PROGRAM                     providing policy, guidance, advice, and oversight for
                            information technology (IT) security. DOI’s information
                            security program is based on Office of Management and Budget
                            policies, National Institute of Standards and Technology (NIST)
                            standards and guidelines, and DOI policy established in the
                            Departmental directives.

                            The DOI CIO reviewed the information security programs of
                            DOI components and established an automated DOI Computer
                            Incident Reporting Center (DOI CIRC) for internally reporting
                            and tracking computer incidents and for externally reporting
                            incidents to the Federal information security incident center.2      TP   PT




                            Additionally, DOI implemented a Command Center to track and
                            monitor certification and accreditation of DOI components’

    2
    TPFISMA requires agencies to notify and consult with the Federal information security center of
         PT




computer security incidents. At the issuance of FISMA the reporting agency was the Federal Computer
Incident Response Center. Effective March 2004, under the Department of Homeland Security, the
reporting agency is the U.S. Computer Emergency Readiness Team (US-CERT).


                                                                                                           2
                             general support systems and major applications (herein after
                             referred to as system or systems).

                             To further aid in improving DOI’s information security
                             management program, the Chief Information Security Officer
                             established an Information Technology Security Team
                             comprised of information technology security managers from all
                             the DOI components. Components also report monthly to the
                             DOI CIO on security improvements and on the status of the
                             certifications and accreditations completed for each system
                             under their control.

SCOPE AND                    To complete our review we: reviewed documentation
                             supporting certifications and accreditations completed in fiscal
METHODOLOGY                  year 2004 (as of July 30, 2004) for 8 systems; tested selected
                             controls at the data centers; interviewed NBC management and
                             staff; judgmentally selected and examined 15 of about 200
                             agreements between NBC and external clients. The 15
                             agreements selected were those of clients that used more than 1
                             NBC system. In addition, we analyzed information on system
                             certification and accreditation which NBC reported monthly to
                             the DOI CIO and DOI senior management.

                             The systems reviewed were:

                                  Denver Data Center Enclave General Support System
                                   (DDC) and supported applications:

                                        Federal Financial System (FFS) – major application
                                        Federal Personnel and Payroll System (FPPS)3 –       TP   PT




                                         major application
                                        Quarters Management Information System (QMIS) –
                                         major application
                                        Oracle Federal Financials4    TP   PT




    3
    TPFPPS includes Web FPPS, a Web-based front end for access to FPPS, and Quicktime, an electronic
         PT




time and attendance system.
    4
    TPOracle Federal Financials and Momentum are not used by DOI; therefore, are not considered major
         PT




applications. NBC has drafted system security plans for these applications.

                                                                                                        3
                                    Reston Local Area Network General Support System
                                     (Reston-LAN) and supported applications:

                                           Interior Department Electronic Acquisition System
                                            (IDEAS)5 – major application (databases are housed
                                                       TP   PT




                                            within the DDC and Reston-LAN general support
                                            systems)

                                           Momentum Financial and Acquisition4            P   P




                                    Interagency Aviation Services Local Area Network
                                     (IAS-LAN) General Support System and supported
                                     applications:

                                           Automatic Flight Following (AFF)
                                           Federal Aviation Resources System (FARS)
                                           SAFECOM
                                           SAFENET
                                           Interagency Aviation Training (IAT)
                                           Aviation Management Information Resource System
                                            (AMIRS)

                                     Drug Testing System – major application

                              Our review was conducted in accordance with the Quality
                              Standards for Inspections issued by the President’s Council on
                              Integrity and Efficiency.

RESULTS OF REVIEW
With minor exceptions, we concluded that NBC’s information security management
program and practices met FISMA requirements. Our findings are described below.
Also, the Appendix identifies the state of security processes which each system has
undergone to meet FISMA requirements, as of July 30, 2004.

ASSESSING AND                    Controls: DOI and NBC policies and procedures require
MANAGING RISK AND                risks be assessed every 3 years or whenever significant
                                 changes to the information system environment occurs.
DETERMINING THE
                                 Further, as part of implementing FISMA, DOI has specified
APPROPRIATE                      processes to identify risks, implement security protections
INFORMATION                      commensurate with mitigating the risks to an acceptable
SECURITY LEVEL                   level, and identify system security levels as part of system

    5
    TPIDEAS comprises several applications including IDEAS-PD and IDEAS-EC. Non-DOI clients
         PT




primarily use IDEAS-PD and can use IDEAS-EC, however clients must have IDEAS-PD before they can
use IDEAS-EC. Clients can implement IDEAS-PD in several ways, including using DOI as a service
organization that hosts the computing platform for the application and the related database or installing the
application software and operating it in the clients’ computing environment.

                                                                                                            4
                                 certification and accreditation. DOI’s process for identifying
                                 the system security levels is based on NIST Federal
                                 Information Processing Standards (FIPS) Publication 199,
                                 “Standards for Security Categorization of Federal Information
                                 and Information Systems.”6 These processes for identifying
                                                                 TP   PT




                                 risk and determining security levels include conducting:

                                      Assessments of privacy impact based on the
                                       information collected, stored, and processed by the
                                       systems.

                                      Assessments of technical vulnerabilities to test
                                       technical controls of the “as built” system.

                                      Evaluations of the asset and information to determine
                                       the overall importance of the system, the services the
                                       system provides, importance and sensitivity of the
                                       data, and the costs of the resources to operate and
                                       maintain the system. Based on the reviews, systems
                                       are categorized between high risk systems, such as
                                       National critical infrastructure information systems,
                                       financial systems, or wide area network systems;
                                       mission critical or business essential systems; or other
                                       sensitive but unclassified systems.

                                      Reviews of the 17 key control areas identified by
                                       NIST Special Publication 800-26, “Self Assessment
                                       of Information Technology Security Controls” 7 and        TP   PT




                                       through DOI’s 800-26 based questionnaire.

                                      Risk assessments based on NIST Special Publication
                                       800-30 “Conducting Risk Assessments for Federal
                                       Information Systems.”8              TP   PT




                                 Additionally, the Departmental Manual requires component-
                                 level IT security managers to certify and document system
                                 interconnections and information sharing arrangements to


    6
    TP FIPS Publication 199 establishes the standards for categorizing information and information systems
         PT




and establishes a common framework for Federal agencies in expressing adequate security and
effectiveness of information security policy, procedures, and practices.
     7
    TP NIST Special Publication 800-26 provides an agency with a methodology to determine the current
         PT




status of its information security program and provides a target for improvement. The assessment
questionnaire is based on 5 levels of security and 17 control areas. The results can produce a reliable
measure of security effectiveness.
     8
    TP NIST Special Publication 800-30 provides the foundation for developing an effective risk
         PT




management program. The assessment allows management to make well-informed risk management
decisions to justify IT expenditures and to determine whether an IT system should be accredited.

                                                                                                           5
                                assure that inherited risks from other organizations are
                                understood and managed.

                                Finding: NBC had identified the level of risk for the eight
                                systems reviewed. However, some of these systems were not
                                subject to a risk assessment or had not been re-assessed
                                within a 3-year timeframe. For two of the systems (IAS-LAN
                                and the Drug Testing System) no assessments of risk were
                                conducted and for the remaining six systems, risk
                                assessments had been completed, but the assessments were
                                not conducted utilizing NIST Special Publication 800-30
                                guidance. NBC performed security tests and evaluations
                                (ST&E)9 of seven of the eight systems during fiscal year
                                2004. The ST&Es examined the risk assessments and
                                reported them as insufficient. In addition, risk assessments of
                                FFS and FPPS were performed over 3 years ago. NBC has
                                reported these weaknesses in its Plan of Action and Milestone
                                (POA&M) report.

                                The Drug Testing System is owned, managed, and operated
                                by a contractor on behalf of DOI. Although NBC conducted
                                some form of assessment of this system and identified the risk
                                level as “low,” we do not agree with the risk level assigned.
                                NBC had not conducted a privacy impact assessment or risk
                                assessment of this system to support its decision. NBC’s self
                                assessment of the system identified that the system contains
                                Privacy Act information and sensitive information (results of
                                employee drug tests); therefore, we believe the security level
                                should be higher.

                                IAS-LAN is located in a contractor facility and operated by
                                NBC staff and was evaluated during fiscal year 2004.
                                However, we found that two agreements for acquiring IAS-
                                LAN services did not clearly articulate the types of services
                                provided, the applications to be used by the client, and each
                                party’s roles and responsibilities for securing information.

                                The ST&E process also identified that NBC did not ensure
                                that all inter-agency agreements included the information
                                needed to ensure that risks were fully understood and
                                protections were in place to reduce the risks to an acceptable
                                level. To address this problem, NBC developed Security
                                Service Agreements and Interconnect Security Agreements

    9
     Security test and evaluation (ST&E) is a process to identify security weaknesses or vulnerabilities.
DOI requires an ST&E for each system as part of the certification and accreditation process. DOI’s ST&E
methodology is based on NIST Special Publication 800-37, “Guide for the Security Certification and
Accreditation of Federal Information Systems.”

                                                                                                        6
                                  that are to be included as part of the overall agreements.
                                  However, only 1 of the 15 agreements we reviewed had a
                                  Security Service Agreement, and none had Interconnect
                                  Security Agreements. NBC reported in its POA&M that the
                                  Security Service and Interconnect Security Agreements will
                                  be incorporated by December 2005 as part of all applicable
                                  inter-agency agreements.

                                  To ensure that risks are understood and security protections
                                  are established to reduce the risks to acceptable levels, we
                                  believe that an exchange of system security plans between
                                  NBC and its clients should be accomplished. This exchange
                                  will provide each party the necessary information to
                                  understand the level of importance each party assigns to the
                                  sensitivity and criticality of the systems and information as
                                  well as describing the respective control environments.
                                  Through these exchanges NBC will have a better
                                  understanding of the risks to its systems and external clients’
                                  requirements to ensure that appropriate protections are
                                  implemented.

PERIODICALLY                      Control: DOI’s policy requires security controls and
TESTING AND                       techniques to be tested and evaluated by DOI components
                                  through conducting monthly vulnerability scans of internal
EVALUATING
                                  networks and annual self-assessments of controls based on
INFORMATION                       DOI’s self-assessment questionnaire. Additionally, as part of
SECURITY CONTROLS                 the certification and accreditation process, systems’ controls
AND TECHNIQUES                    are evaluated.

                                  Finding: All eight systems reviewed had undergone DOI’s
                                  self-assessment evaluation during fiscal year 2004. Also,
                                  FFS, FPPS, and Momentum are reviewed annually under
                                  Statement on Auditing Standards 70,10 established by the
                                  American Institute of Certified Public Accountants. Controls
                                  over DOI’s administrative systems (FFS, FPPS, and IDEAS)
                                  and the hosting general support systems are tested and
                                  evaluated as part of DOI’s annual financial statement audits.
                                  Testing under the financial statement audits has not, at this
                                  time, identified any significant weaknesses in security of FFS,
                                  FPPS, and the supporting DDC general support system.



    10
       Statement on Auditing Standard 70, “Reports on the Processing of Transactions by Service
Organizations,” includes EDP service centers that process transactions and data for others. The Standard
provides guidance on the factors an independent auditor must consider when auditing the financial
statements of an entity that uses a service organization. The review identifies control objectives, controls
established to meet the objectives, and tests of the controls to determine whether they are operating
effectively.

                                                                                                               7
                    During fiscal year 2004 (as of July 30, 2004), NBC conducted
                    limited technical vulnerability assessments of two systems,
                    QMIS and IAS-LAN. Of the remaining six systems, all but
                    the Drug Testing System, which had not had a technical
                    vulnerability assessment, had limited technical vulnerability
                    assessments performed during fiscal year 2003.

                    Additionally, as part of the certification and accreditation
                    process, NBC conducted ST&Es on seven of the eight
                    systems. We reviewed the ST&E methodology and scope for
                    each system evaluated and concluded the ST&E process was
                    generally comprehensive, except for the evaluation of the
                    Reston-LAN. In this evaluation, the facility that housed
                    Momentum was excluded. We also generally agreed with the
                    level of risk assigned to the weaknesses. We reviewed the
                    ST&E results of 74 weaknesses or vulnerabilities and the
                    related residual risk reports which identified security related
                    risks of the weaknesses or vulnerabilities that may affect
                    NBC operations. Of the ST&E and residual risk reports
                    reviewed, FFS and the enterprise server component of DDC
                    had no weaknesses and the remaining six systems had 74
                    weaknesses of which 13 were considered high risk (IAS-
                    LAN), 32 were considered medium risk, 22 were considered
                    low risk, and 7 high-risk weaknesses were mitigated. NBC
                    did include all of the other 67 weaknesses in its POA&M.

MINIMALLY           Control: DOI has established security technology
ACCEPTABLE SYSTEM   implementation guidelines for configuration requirements of
                    specific IT resources, such as UNIX operating system, and
CONFIGURATION
                    has also adopted certain NIST security configuration
REQUIREMENTS        guidance, such as securing Windows XP.

                    Finding: NBC has guidance regarding baseline and security
                    configuration requirements for its servers. Additionally,
                    NBC reported that additional security configuration
                    requirements are needed and this condition is reported as a
                    weakness in its POA&M report. Within six of the seven
                    systems that had security plans, we found some identification
                    of system security configurations, but the configurations were
                    not necessarily consistent.

SUBORDINATE         Control: DOI’s policy requires each general support system
PLANS               and major application have an individual system security plan
                    that is based on NIST Special Publication 800-18, “Guide for




                                                                                  8
                                 Developing Security Plans for Information Technology
                                 Systems.”11

                                 Finding: All but one of the eight systems reviewed (Drug
                                 Testing System) had a system security plan. However,
                                 improvements are needed to most of the plans. The needed
                                 improvements include: better description of the control
                                 environment; assignment of security responsibility to
                                 appropriate personnel rather than to the NBC IT security
                                 manager or deputy or to individuals with other system
                                 management duties; descriptions of applications being
                                 supported by general support systems including external
                                 clients; clarification between current controls and planned
                                 controls; and identification of laws and regulations specific to
                                 a system rather than general information security laws and
                                 regulations such as FISMA. NBC reported these weaknesses
                                 in its POA&M.

INFORMATION                      Control: DOI specifies that security requirements be
SECURITY                         included in information technology budget and investment
                                 justification documents and that the DOI Office of the Chief
MANAGEMENT
                                 Information Security Officer verify that the documents
INTEGRATED WITH                  contain security requirements. Additionally, DOI requires
STRATEGIC AND                    that resource requirements needed to correct identified
OPERATIONAL                      weaknesses be included in POA&Ms.
PLANNING
PROCESSES                        Finding: Generally, NBC included estimated funding for all
                                 planned corrective actions in the appropriate documents.
                                 Further, the DOI CIO requires that as part of the certification
                                 and accreditation process, POA&Ms be used for identifying,
                                 prioritizing, managing, and tracking actions to correct
                                 security weakness. NBC followed this process.

TRAINING                         Control: DOI requires that all employees and contractors
PERSONNEL IN                     complete annual online security awareness training.
                                 Additionally, DOI instituted a tracking system to identify and
SECURITY
                                 report the numbers and percentages of employees who have
RESPONSIBILITIES                 successfully completed the annual training. Further, NBC’s
                                 policy requires that all newly hired employees and contractors
                                 successfully complete security training prior to obtaining
                                 access to NBC systems and applications.



    11
       NIST Special Publication 800-18 identifies information to be included in a general support system
and major application system security plan. This information includes a description of the system’s
security requirements, controls in place or planned for meeting those requirements, and the protection of
information resources. The security plan is also the foundation for system accreditation.

                                                                                                            9
                   Finding: As of June 2004, all NBC employees and
                   contractors had successfully completed their annual security
                   awareness training. In tests of systems and reviews of
                   certification and accreditation documentation, we did not find
                   any instances where new NBC staff and contractors were
                   granted access to systems before completing the required
                   training.

                   NBC has established a process to monitor the completion of
                   specialized security training, including security awareness
                   training, for employees holding key IT positions, such as
                   program managers and system owners. However, NBC does
                   not have a process to monitor the completion of technical or
                   specialized training to ensure that training is regularly
                   completed by employees and contractors with IT security
                   responsibilities. DOI IT staff who manage the security of
                   systems are also encouraged to attain the Certified
                   Information System Security Professional certification. The
                   NBC IT security manager and five other NBC staff have
                   attained this certification. Also, NBC IT Directorate
                   management had attended specialized training related to their
                   information security management responsibilities.

INCIDENT           Control: DOI’s incident reporting and handling policy and
DETECTION AND      handbook requires components to develop specific incident
                   reporting and handling policies and procedures and to
REPORTING
                   establish incident response teams. In addition, DOI has
                   implemented an automated incident reporting system (DOI
                   CIRC) and requires DOI components to report all incidents.
                   Incidents reported to DOI CIRC are also reported to US-
                   CERT. NBC also has policies and procedures for identifying,
                   reporting, and handling computer security incidents and has a
                   computer security incident response team. Further, NBC has
                   rules of behavior that describe the process users of the
                   systems should take in identifying and reporting incidents.
                   Finally, all internal users are required to sign the rules of
                   behavior prior to being granted access to NBC systems and
                   applications.

                   Finding: NBC is following its handbook and is reporting
                   incidents to DOI CIRC which are automatically reported to
                   US-CERT.

REMEDIAL ACTIONS   Control: DOI policy requires that weakness identified
TO ADDRESS         during any review be reported in POA&Ms. As part of the
                   POA&M process, DOI requires components provide the DOI
DEFICIENCIES
                   CIO with quarterly updates on progress in completing and
                   managing corrective actions for each weakness.
                                                                               10
                           Finding: NBC generally included weaknesses identified
                           through Office of Inspector General audits and through
                           NBC’s system tests, evaluations, and self assessments in its
                           POA&M.

CONTINUITY OF              Control: DOI requires that continuity of operations plans be
OPERATIONS                 developed for every system and that the plans be tested at
                           least annually.

                           Finding: NBC had business resumption plans and continuity
                           of operations plans for six of the eight systems reviewed.
                           However, contingency plans were not always updated based
                           on tests of the plans and improvements were needed in
                           documenting test results and applying lessons learned. We
                           also noted that NBC’s ST&E and self-assessment processes
                           evaluated backup and recovery procedures and practices and
                           identified only low-risk weaknesses.

SECURITY                   Control: DOI’s policy requires that every system include
PRACTICED                  security as part of its life cycle management process. In
                           addition, systems are required to be certified and accredited
THROUGHOUT LIFE
                           and are re-certified and re-accredited every 3 years or
CYCLE OF EACH              whenever significant changes occur.
INFORMATION
SYSTEM                     Finding: NBC generally followed DOI’s certification and
                           accreditation process. That is, NBC generally described the
                           security life cycle management for each of the seven system
                           security plans we reviewed. Further, through the various
                           reviews and assessments, NBC demonstrated that security
                           was being practiced for six of the systems and that needed
                           security improvements were reported, tracked, and monitored
                           through NBC’s POA&M process.

SUGGESTION FOR IMPROVEMENT
To improve its security program, we suggest that NBC obtain from its clients’ the system
security plans for general support systems and major applications attributable to the
application services being provided. In addition, we suggest that NBC provide to its
clients the system security plans of the applications and general support systems used.




                                                                                           11
                                                                                                                                                                                                          APPENDIX
                                                                                   Department of the Interior
                                                            National Business Center General Support Systems and Major Applications
                                                                                    Used by non-DOI Clients
                                                                                                                                                          System Test and
                                                                                                                                                            Evaluation
                                                                                         Limited or                                                                            Weaknesses in
                                             Privacy   System     Self                   Technical                                Testing of                        Residual     Plans of
                                    Asset    Impact   Security Assessment               Vulnerability        Risk    Contingency Contingency                         Risk       Actions and
    System Name       Operated By Valuation Assessment Plan     (800-26)                 Assessment       Assessment    Plan        Plan                  Report    Report      Milestones   Certification Accreditation
Denver Data Center
                                     Sept.                     Sept.
Enclave General           DOI                     Yes                    March 04        Sept. 03          June 01        April 04       March 04        June 04     June 04       Yes            June 04           June 04
                                      03                        03
Support System
Applications Housed by Denver Data Center
  Federal Financial                  Sept.
                          DOI                     Yes         Feb. 04    April 04        Sept. 03           July 00       April 04       March 04        June 04     July 04       Yes            July 04           July 04
  System                              03
  Federal Personnel
                          DOI       July 04       Yes         July 04 March 04           Sept. 03          June 001       April 04        Aug. 04        June 04     July 04       Yes            July 04           July 04
  and Payroll System
  Quarters
                                                               April
  Management              DOI       June 04       Yes                    April 04        May 04             July 01       April 04       March 04         June04     July 04       Yes            July 04           July 04
                                                                04
  Information System
  Oracle Federal
                                           This application is not considered as a DOI major application, therefore, it was included as part of the Denver Data Center Enclave General Support System
  Financial2
Reston Local Area
Network General           DOI       May 04        Yes        May 04      April 04        Oct. 03           Sept. 03       Aug 03          Aug 03         June 04     June 04       Yes            June 04           June 04
Support System
Applications Housed by Reston Local Area Network General Support System
  Momentum2                                This application is not considered as a DOI major application, therefore, it was included as part of the Reston Local Area Network General Support System
  Interior Department
                                                               Mar.
  Electronic              DOI       July 03       Yes                    March 04        July 03            Oct. 01       Aug. 03         Aug. 03        May 04      June 04       Yes            June 04           July 04
                                                                04
  Acquisition System
Drug Testing System Contractor                                            May 04                                                                                                   Yes
Interagency Aviation
Services Local Area      DOI/                                  April
                                    May 04        Yes                    April 04        April 04                                                        June 04     June 04       Yes            June 04           June 04
Network General       Contractor                                04
Support System
Applications Housed by Interagency Aviation Services Local Area Network
  Automatic Flight
  Following
  System
  Federal Aviation
  Resources
  System                             These applications are not considered by DOI as major applications, therefore, they were included as part of the Interagency Aviation Services Local Area Network
  SAFECOM
  SAFENET
  Interagency
  Aviation
  Training System




     1
       An asset valuation, technical vulnerability assessment, and a self-assessment were completed in June 2003 of the Federal Personnel and Payroll System based on the Department’s definition of an “initial” risk
 assessment.
     2
       Oracle Federal Financial System and Momentum are used by non-DOI clients.
                                                                                                                                                                                                                         12
